APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the United States Court of
Appeals for the Sixth Circuit
(June 15, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Order in the United
States District Court Southern
District of Ohio Eastern Division
(December 4, 2019) . . . . . . . . . . . . App. 8
Appendix C Opinion and Order in the United
States District Court Southern
District of Ohio Eastern Division
(September 21, 2020) . . . . . . . . . App.19

App. 1

APPENDIX A
NOT RECOMMENDED FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-4025
[Filed: June 15, 2021]
__________________________________________
WILLIAM T. SCHMITT; CHAD
)
THOMPSON; DEBBIE BLEWITT,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
FRANK LAROSE, Ohio Secretary of State, )
)
Defendant,
)
)
and
)
)
CRAIG M. STEPHENS; PATRICIA
)
NELSON; DORIA DANIELS;
)
ELAYNE J. CROSS, in their official
)
capacities as members of the Portage
)
County Board of Elections,
)
)
Defendants-Appellees.
)
__________________________________________

App. 2
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF OHIO
ORDER
Before: SUTTON, Chief Judge;
NALBANDIAN, Circuit Judges.

CLAY

and

PER CURIAM. William T. Schmitt, Chad
Thompson, and Debbie Blewitt appeal the district
court’s denial of their motion for attorney’s fees against
the Portage County Board of Elections. Because the
district court did not abuse its discretion when it
denied the fee request, we affirm.
In 2018, Schmitt and Thompson circulated identical
initiatives in Garrettsville and Windham, two villages
within Portage County, Ohio, in an effort to place the
initiatives on each village’s November 2018 election
ballot. The Portage County Board of Elections declined
to certify the initiatives for the ballot, deeming them
“administrative in nature, rather than legislative.”
A couple months before the November election,
Schmitt and Thompson, along with Blewitt (who had
signed the initiative circulated for the Windham ballot)
sued the Board and then-Ohio Secretary of State Jon
Husted under 42 U.S.C. § 1983. They raised as-applied
and facial First Amendment challenges to Ohio’s ballotinitiative statutes, see O.R.C. §§ 3501.11(K),
3501.38(M)(1)(a), and 3501.39(A), which vest in local
boards of election the responsibility to act as
“gatekeepers” to Ohio’s popular initiative ballots.

App. 3
In September 2018, the district court granted the
Plaintiffs’ application for a temporary restraining order
based on the as-applied challenge. It directed the
defendants to place both initiatives on the November
2018 ballots. Soon after, the district court converted the
temporary restraining order into a preliminary
injunction that would expire the day after the election.
The Board complied with the order, and on November
6, 2018, the Windham initiative passed, while the
Garrettsville initiative failed.
Thereafter, the court ordered additional briefing on
the Plaintiffs’ facial challenge. It ultimately concluded
that the Plaintiffs had prevailed on their facialconstitutional challenge to the ballot-initiative process.
So the court converted the preliminary injunction into
a permanent injunction and entered a final judgment.
The Secretary of State appealed the judgment.
In an opinion issued on August 7, 2019, we reversed
the district court’s order and vacated the permanent
injunction. Schmitt v. LaRose, 933 F.3d 628 (6th Cir.
2019).
After this court issued its mandate, the Plaintiffs
sought attorney’s fees. They argued that
“notwithstanding [the Secretary of State]’s successful
appeal, Plaintiffs remain entitled to costs and
attorneys’ fees for their preliminary success on their asapplied challenge, which was not appealed.”
The district court denied the Plaintiffs’ motion for
attorney’s fees. Relying on the Supreme Court’s
decision in Sole v. Wyner, 551 U.S. 74 (2007), the
district court found the Plaintiffs were not entitled to

App. 4
attorneys’ fees under § 1988(b) because the final
decision from this court on appeal reversed the sole
ground on which the Plaintiffs initially succeeded. In
other words, “the merits that won preliminary
injunction for Plaintiffs were identical to those that lost
the appeal.”
The Plaintiffs moved for relief under Civil Rule
59(e) to alter the judgment, claiming that, because the
Board did not appeal the district court’s merits ruling,
it could not take advantage of the Sixth Circuit decision
that upheld the validity of the initiative process against
this free-speech challenge. But the district court
explained that “awarding attorneys’ fees in this
situation would raise form over substance” because the
Sixth Circuit “reversed the merits of the decision upon
which Plaintiffs now stand.” “This decision,” it
observed, “does not implicate the effects of joining or
not joining an appeal, but instead only relates to [its]
discretionary power to award attorneys’ fees under
Section 1988 and to amend a judgment under Rule 59.”
The Plaintiffs appeal the district court’s decision to
deny their motion for attorney’s fees and the denial of
their Rule 59(e) motion.
The relevant question on appeal is whether the
district court abused its discretion in denying the
Plaintiffs’ motion for attorney’s fees. See Berger v. City
of Mayfield Heights, 265 F.3d 399, 402 (6th Cir. 2001).
Section 1988 provides that when a party files suit
under § 1983 “the [district] court, in its discretion, may
allow the prevailing party, other than the United
States, a reasonable attorney’s fee as part of the costs.”

App. 5
42 U.S.C. § 1988(b)). “Although the text of the provision
does not specify any limits upon the district courts’
discretion to allow or disallow fees, in a system of laws
discretion is rarely without limits.” Indep. Fed’n of
Flight Attendants v. Zipes, 491 U.S. 754, 758 (1989).
Though a prevailing plaintiff should “ordinarily recover
an attorney’s fee,” that is not the case when “special
circumstances would render such an award unjust.”
Newman v. Piggie Park Enters., Inc., 390 U.S. 400, 402
(1968). “Neither the Supreme Court nor this Court
have defined what ‘special circumstances’ could defeat
an attorney’s fee award to a prevailing plaintiff.”
Cleveland v. Ibrahim, 121 F. App’x 88, 90 (6th Cir.
2005). As a result, our court “has eschewed adopting a
predetermined formula in favor of a case-by-case
approach.” Hescott v. City of Saginaw, 757 F.3d 518,
523 (6th Cir. 2014) (quotations omitted).
The district court did not abuse its discretion in
denying this fee request. The rejection of a party’s key
legal argument on appeal counts at a minimum as a
special circumstance justifying a district court’s
decision to deny fees. The Supreme Court’s decision in
Sole v. Wyner helps to show why. In that case, T.A.
Wyner sought preliminary injunctive relief against
state interference with a Valentine’s Day peace sign
display as well as permanent injunctive relief against
interference with future expressive activities. 551 U.S.
at 79. The district court granted the preliminary
injunction, and the peace sign display took place the
next day at the Valentine’s Day event. Id. at 80. Wyner
then pursued her demand for a permanent injunction.
But the district court denied Wyner’s request. Id. Yet
it awarded her attorney’s fees for her success in

App. 6
obtaining preliminary relief. Id. The Supreme Court
reversed, reasoning that prevailing party status “does
not attend achievement of a preliminary injunction
that is reversed, dissolved, or otherwise undone by the
final decision in the same case.” Id. at 83; see also id. at
78 (“A plaintiff who achieves a transient victory at the
threshold of an action can gain no award under that
fee-shifting provision if, at the end of the litigation, her
initial success is undone and she leaves the courthouse
emptyhanded.”).
The traditional rule, then, is that temporary relief
with respect to a specific event—an election day or
Valentine’s Day or some other day—does not justify
fees if the legal premise of that decision is later
reversed on appeal during the permanent injunction
phase of the case. See id. at 85 (dismissing the
contention that the form of initial relief, whether as
applied or something else, makes a difference once a
later decision undermines the legal basis of an earlier
one). That rule at a minimum suggests Judge Sargus
did not abuse his discretion in denying the Plaintiffs’
request for fees.
This conclusion does not change merely because the
State, but not the County, appealed the permanent
injunction decision. That the State alone appealed a
decision with respect to the constitutionality of a state
law does not deprive the County of the benefit of that
later appellate decision, particularly when it comes to
the district court’s exercise of discretion over an
attorneys’ fee request. It is not unusual for States to
litigate in the interests of agencies of the State or
subdivisions of the State. Those agencies may benefit

App. 7
from those decisions (when the State wins) or pay the
price for them (when the State loses).
Accordingly, we affirm the district court’s order
denial of the Plaintiffs’ motion for attorneys’ fees and
the order denying the Plaintiffs’ Rule 59(e) motion.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 8

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 2:18-cv-966
[Filed: December 4, 2019]
___________________________________________
WILLIAM T. SCHMITT, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
OHIO SECRETARY OF STATE
)
FRANK LaROSE, et al.,
)
)
Defendants.
)
___________________________________________)
JUDGE EDMUND A. SARGUS, JR.
Chief Magistrate Judge Elizabeth P. Deavers
OPINION AND ORDER
This matter is before the Court on Plaintiffs’ Motion
for Attorneys’ Fees (ECF No. 45), Renewed Motion for
Attorneys’ Fees (ECF No. 68), and Defendant Secretary
of State Frank LaRose’s Bill of Costs (ECF No. 55). The
parties have fully briefed these motions, which are thus
ripe for review. For the reasons stated below, the Court

App. 9
DENIES Plaintiffs’ Motion for Attorneys’ Fees (ECF
No. 45), DENIES Plaintiffs’ Renewed Motion for
Attorneys’ Fees (ECF No. 68), and DENIES
Defendant’s Bill of Costs (ECF No. 55). Accordingly,
Plaintiffs’ Motion to Stay the Bill of Costs (ECF No. 57)
is rendered MOOT. Further, because the Court
granted Defendant LaRose’ s Bill of Costs based on the
parties’ briefs, Plaintiffs’ Motion to File Surreply to
Defendant LaRose’s Bill of Costs (ECF No. 65) is
rendered MOOT.
I. Background
Plaintiffs submitted proposed ballot initiatives to
the Portage County Board of Elections that would
decriminalize marijuana possession in the Ohio villages
of Windham and Garrettsville. The Board rejected the
proposed initiatives upon concluding that they fell
outside the scope of the villages’ legislative authority.
Rather than petitioning for mandamus relief,
Plaintiffs brought this 42 U.S.C. § 1983 action against
the Board and the Ohio Secretary of State alleging the
statutes that govern Ohio’s ballot initiative process
impose a prior restraint on Plaintiffs’ political speech,
thereby violating their rights under the First and
Fourteenth Amendments. Lodging as-applied and facial
challenges, Plaintiffs sought a temporary restraining
order compelling Defendants to place Plaintiffs’
proposed initiatives on the ballots so that citizens of
Windham and Garrettsville could vote to accept or
reject the initiatives. Plaintiffs also sought an order
striking down Ohio’s initiative procedure as
unconstitutional.

App. 10
This Court granted Plaintiffs a temporary
restraining order after concluding Ohio’s initiative
process lacked de novo judicial review and therefore
violated the First Amendment. Accordingly, the Court
directed Defendants to place the initiatives on the
ballots, pursuant to the relief requested by Plaintiffs’
as-applied challenges. Because the temporary
restraining order would expire before the election day,
the parties agreed to convert the temporary restraining
order into a preliminary injunction that would then
expire the day after the election. On election day, the
Windham initiative passed, but the Garrettsville
initiative failed. At that point, the preliminary
injunction and as-applied challenges were moot.
Schmitt, 933 F.3d at 636, n.2 (6th Cir. 2019).
The parties then agreed to additional briefing to
address Plaintiffs’ facial challenges to Ohio’s initiative
process. After fully briefing the issues and conducting
oral argument, this Court permanently enjoined
Defendants from enforcing the ballot initiative process
without de novo judicial review. On March 12, 2019,
Secretary of State LaRose timely appealed. The
Portage Board of Elections did not join the appeal.
On March 15, 2019, Plaintiffs filed their Motion for
Attorneys’ Fees and Costs under 42 U.S.C. § 1988(b).
Given Secretary LaRose’s then-pending appeal,
Plaintiffs recognized in their Motion that this Court
had discretion to defer acting until the completion of
the appeal. Plaintiffs also conceded that “[t]hey filed
their Motion for Costs and Attorneys’ Fees to ensure
that they comply with Local Rule 54.2’s 45-day
window.” (See Pls.’ Mot. for Fees at 5.) The Court then

App. 11
stayed briefing on Plaintiffs’ Motion for Attorneys’ Fees
and Costs for the duration of the appeal.
On August 7, 2019, the Sixth Circuit reversed this
Court’s Order and vacated the permanent injunction.
Secretary LaRose then filed his Bill of Costs.
II. Motion for Attorney’s Fees and Costs
“The common law contains no right to attorney’s
fees for the winning party to a lawsuit.” Miller v.
Caudill, 936 F.3d 442, 448 (6th Cir. 2019) (citing
McQuery v. Conway, 614 F.3d 591, 596 (6th Cir. 2010)).
Instead, the “American Rule” applies, and so each
party pays its own fees unless a statute explicitly
provides otherwise. Id. (citing Buckhannon Bd. & Care
Home v. W. Va. Dep’t of Health & Human Res., 532
U.S. 598, 602 (2001)). When a party prevails in a civil
rights action brought under 42 U.S.C. § 1983, then 42
U.S.C. § 1988 supplants the American Rule:
In any action or proceeding to enforce a
provision of...[Section] 1983..., the court, in its
discretion, may allow the prevailing party, other
than the United States, a reasonable attorney’s
fee....
42 U.S.C. § 1988(b).
The issue, then, is whether Plaintiffs prevailed. To
be a prevailing party, a plaintiff must have obtained an
injunction that: (1) was court-ordered, and (2) caused
a material, (3) irrevocable change in the legal
relationship between the plaintiff and defendants that
directly benefitted the plaintiff. Miller, 936 F.3d at 448.
Therefore, determining whether the winner of a

App. 12
preliminary injunction is a prevailing party is a
contextual and case-specific inquiry. Id. In such
instances, courts address this question “with both
hesitancy and skepticism because the ‘preliminary’
nature of the relief...generally counsels against fees in
the context of preliminary injunctions.” Miller, 936
F.3d at 448 (quoting McQuery, 614 F.3d at 601).
So, context is key. See McQuery, 614 F.3d at 598-99.
Fortunately, the Supreme Court has addressed the
context in which this matter is presented. In Sole, the
Supreme Court found “that a plaintiff who gains a
preliminary injunction does not qualify for an award of
counsel fees under § 1988(b) if the merits of the case
are ultimately decided against her.” Sole v. Wyner, 551
U.S. 74, 86 (2007).
Plaintiffs contend that Sole is inapposite. According
to them, Sole does not categorically bar awarding fees
in the absence of final judgment favoring Plaintiffs.
(Pls.’ Reply at 5.) On that point, the Court agrees. See
Sole, 551 U.S. at 86 (“We express no view on whether,
in the absence of a final decision on the merits of a
claim for permanent injunctive relief, success in
gaining a preliminary injunction may sometimes
warrant fees.”).
Plaintiffs overlook, however, when Sole does bar
awarding fees, which is whenever a final judgment on
the merits reverses the sole ground on which the
plaintiff initially succeeded. That is this case. See id.
(“A plaintiff who ‘secures a preliminary injunction,
then loses on the merits as the case plays out and
judgment is entered against her,’ has ‘won a battle but
lost the war.’”) (quoting Watson v. Cnty. of Riverside,

App. 13
300 F.3d 1092, 1096 (9th Cir. 2002) (cleaned up)); see
also Bowman v. Corr. Corp. of Am., 350 F.3d 537, 551
(6th Cir. 2003) (“Since we now reverse the sole ground
on which Bowman succeeded, Bowman is no longer
entitled to an award of attorney’s fees or costs, as she
is no longer a “prevailing party” for purposes of the
statute.”).
Here, the merits were the same at both the
preliminary and permanent injunction stages. The
Plaintiffs won a preliminary injunction because the
Court found that the First Amendment guarantees
judicial review when a board of elections denies a ballot
initiative petition as an administrative action. The
Sixth Circuit ultimately concluded that the First
Amendment does not guarantee such review.
Therefore, the merits that won preliminary injunction
for Plaintiffs were identical to those that lost the
appeal. Accordingly, Sole applies and bars attorney’s
fees.
Next, Plaintiffs argue that they prevailed on the
preliminary injunction because the Sixth Circuit only
reversed the permanent injunction. In Sole, however,
the Supreme Court expressly rejected that argument:
Viewing the two stages of the litigation as
discrete episodes, plaintiffs below, respondents
here, maintain that they prevailed at the
preliminary injunction stage, and therefore
qualify for a fee award for their counsels’ efforts
to obtain that interim relief. Defendants below,
petitioners here, regard the case as a unit; they
urge that a preliminary injunction holds no sway
once fuller consideration yields rejection of the

App. 14
provisional order’s legal or factual
underpinnings. We agree with the latter position
and hold that a final decision on the merits
denying permanent injunctive relief ordinarily
determines who prevails in the action for
purposes of § 1988(b).
Sole, 551 U.S. at 77-78. Accordingly, the Court must
regard the injunctions and their outcomes as a unit. In
doing so, the final determination on the legal
underpinning of this unit is that Plaintiffs lacked a
right to judicial review. Thus, Plaintiffs are not entitled
to attorney’s fees.
Finally, Plaintiffs rely on Planned Parenthood Sw.
Ohio Region v. DeWine, 931 F.3d 530 (6th Cir. 2019)
and McQueary to repeat their argument that they are
not required to win a final judgment to prevail. Again,
the Court agrees. But as discussed supra, those cases
are not this case. Plaintiffs do not lose because they
never won a final judgment; rather, they lose because
Defendant LaRose won a final judgment and did so on
the issue addressed at the preliminary injunction
stage. In other words, the determinative factor is not
the absence of Plaintiffs’ final judgment but the
existence of Defendant LaRose’s final judgment.
Accordingly, this case does not fall outside Sole and
into DeWine and McQueary.
In conclusion, Sole is on point because Plaintiffs
secured a preliminary injunction, then ultimately lost
the case on the same merits. Sole, 551 U.S. at 82. Since
“a plaintiff cannot claim prevailing-party status
prevailing-party status if its success is ultimately
‘reversed, dissolved, or otherwise undone by the final

App. 15
decision in the same case[,]’ ” Plaintiffs cannot collect
attorney’s fees under § 1988. DeWine, 931 F.3d at 538
(quoting Sole, 551 U.S. at 83). Thus, the Court denies
Plaintiffs’ motions for attorney’s fees.
III. Bill of Costs
Defendant LaRose timely filed a Bill of Costs,
seeking to recover $757.20 for filing and transcript fees.
Plaintiffs oppose this request.
Under Federal Rule of Civil Procedure 54(d),
prevailing parties may recover certain, allowable,
reasonable, and necessary costs. The types of costs
allowed are listed 28 U.S.C. § 1920 as follows:
(1)

Fees of the clerk and marshal;

(2)

Fees of the court reporter for all or any
part of the stenographic transcript
necessarily obtained for use in the case;

(3)

Fees for disbursements for printing and
witnesses;

(4)

Fees for exemplification and copies of
papers necessarily obtained for use in the
case;

(5)

Docket fees under [28 U.S.C. § 1923];

(6)

Compensation of court appointed experts,
compensation of interpreters, and
salaries, fees, expenses, and costs of
special interpretation services under [28
U.S.C. § 1828].

App. 16
A bill of costs shall be filed in the case and, upon
allowance, included in the judgment or decree.
28 U.S.C. § 1920.
Under Rule 54(d), “[u]nless a federal statute, these
rules, or a court order provides otherwise, costs—other
than attorney’s fees—should be allowed to the
prevailing party.” This language “creates a
presumption in favor of awarding costs, but allows
denial of costs at the discretion of the trial court.”
White & White, Inc. v. Am. Hosp. Supply Corp., 786
F.2d 728, 730 (6th Cir. 1986). An unsuccessful party
has the burden of showing circumstances to overcome
the presumption that favors the award of permissible
costs to the prevailing party. White & White, 787 F.2d
at 732; see also 10 Wright, Miller, Kane, Federal
Practice and Procedure: Civil 3d § 2679 (1998). In
exercising that discretion, a court should look “first to
whether the expenses are allowable cost items and
then to whether the amounts are reasonable and
necessary.” Jefferson v. Jefferson Cnty. Pub. Sch. Sys.,
360 F.3d 583, 591 (6th Cir. 2004).
Plaintiffs do not argue whether Defendant LaRose’s
expenses are allowable costs under § 1920. Instead,
Plaintiffs contend that this Court should exercise its
discretion and deny all costs. The Sixth Circuit has
identified several factors a losing party may put
forward that may justify denying the prevailing party’s
costs. White & White, 786 F.2d at 732-33; see also
Singleton v. Smith, 241 F.3d 534, 539 (6th Cir. 2001).
Those include the losing party’s good faith and the
difficulty of the case. Id. Here, both are present and

App. 17
both persuade the Court to exercise its discretion and
reject Defendant LaRose’s request for costs.
First, Plaintiffs brought their claims in good faith.
Plaintiffs are political activists and voters who seek to
change the law in Ohio, which they ultimately
achieved. Due to Plaintiffs’ effort in this case, citizens
of two Ohio villages were able to engage in a vote that
would have otherwise never occurred. Although
Plaintiffs chose not to seek a writ from the Supreme
Court of Ohio and instead filed suit in this Court,
Plaintiffs were reasonable to do so since there was no
definitive answer on the matter. Thus, Plaintiffs
brought their claims in good faith.
Second, this case was “close and difficult.” It was a
case of first impression, and also presented intricate
legal issues that analyzed the interplay between state
and federal constitutions, implicated agency deference,
and questioned the scope of voting rights incorporated
to the states. All told, four federal judges arrived at
three conclusions. For these reasons, this case was
close and difficult, and the Court accordingly denies
Defendant LaRose’s Bill of Costs.
IV. Conclusion
For the reasons stated above, the Court DENIES
Plaintiffs’ Motion for Attorneys’ Fees (ECF No. 45),
DENIES Plaintiffs’ Renewed Motion for Attorneys’ Fees
(ECF No. 68), and DENIES Defendant’s Bill of Costs
(ECF No. 55). Accordingly, Plaintiffs’ Motion to Stay the
Bill of Costs (ECF No. 57) is rendered MOOT. Further,
because the Court granted Defendant LaRose’s Bill of
Costs based on the parties’ briefs, Plaintiffs’ Motion to

App. 18
File Surreply to Defendant LaRose’s Bill of Costs (ECF
No. 65) is rendered MOOT.
IT IS SO ORDERED.

12-4-2019
DATE
/s/ Edmund A. Sargus, Jr.
EDMUND A. SARGUS, JR.
UNITED STATES DISTRICT JUDGE

App. 19

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 2:18-cv-966
[Filed: September 21, 2020]
__________________________________________
WILLIAM T. SCHMITT, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
OHIO SECRETARY OF STATE
)
FRANK LAROSE, et al.,
)
)
Defendants.
)
__________________________________________)
JUDGE EDMUND A. SARGUS, JR.
Chief Magistrate Judge Elizabeth P. Deavers
OPINION AND ORDER
This matter is before the Court on Plaintiffs’ Rule
59(e) Motion to Alter or Amend Judgment Denying
Attorney’s Fees (ECF No. 72), Plaintiffs’ Request for a
Status Conference (ECF No. 76), Defendant Portage
County Board of Elections’ Motion in Opposition to
Plaintiffs’ Request for a Status Conference and Request
for Dismissal (ECF No. 77), and Plaintiffs’ Reply to

App. 20
Defendant Portage County Board of Elections’
Response (ECF No. 78). For the reasons that follow,
Plaintiffs’ motions are DENIED. The Clerk is
DIRECTED to close this matter.
I.
Plaintiffs in this action submitted proposed ballot
initiatives to the Portage County Board of Elections
that would decriminalize marijuana possession in the
Ohio villages of Windham and Garrettsville. The Board
rejected the proposed initiatives upon concluding that
they fell outside the scope of the villages’ legislative
authority.
Rather than petitioning for mandamus relief,
Plaintiffs brought this 42 U.S.C. § 1983 action against
the Board and the Ohio Secretary of State alleging the
statutes that govern Ohio’s ballot initiative process
impose a prior restraint on Plaintiffs’ political speech,
thereby violating their rights under the First and
Fourteenth Amendments to the United States
Constitution. Lodging as-applied and facial challenges,
Plaintiffs sought a temporary restraining order
compelling Defendants to place Plaintiffs’ proposed
initiatives on the ballots so that citizens of Windham
and Garrettsville could vote to accept or reject the
initiatives. Plaintiffs also sought an order striking
down Ohio’s initiative procedure as unconstitutional.
This Court granted Plaintiffs a temporary
restraining order after concluding Ohio’s initiative
process lacked de novo judicial review and therefore
violated the First Amendment. Accordingly, the Court
directed Defendants to place the initiatives on the

App. 21
ballots, pursuant to the relief requested by Plaintiffs’
as-applied challenges. Because the temporary
restraining order would expire before the election day,
the parties agreed to convert the temporary restraining
order into a preliminary injunction that would then
expire the day after the election. On election day, the
Windham initiative passed, but the Garrettsville
initiative failed. At that point, the preliminary
injunction and as-applied challenges were moot.
Schmitt, 933 F.3d at 636, n.2 (6th Cir. 2019).
The parties then agreed to additional briefing to
address Plaintiffs’ facial challenges to Ohio’s initiative
process. After full briefing by the parties and oral
argument, this Court permanently enjoined Defendants
from enforcing the ballot initiative process without de
novo judicial review. On March 12, 2019, Secretary of
State LaRose timely appealed. The Portage County
Board of Elections did not join the appeal.
On March 15, 2019, Plaintiffs filed their Motion for
Attorneys’ Fees and Costs under 42 U.S.C. § 1988(b).
Given Secretary LaRose’s then-pending appeal,
Plaintiffs recognized in their Motion that this Court
had discretion to defer acting until the completion of
the appeal. Plaintiffs also conceded that “[t]hey filed
their Motion for Costs and Attorneys’ Fees to ensure
that they comply with Local Rule 54.2’s 45-day
window.” (Pls.’ Mot. for Fees at 5.) The Court stayed
briefing on Plaintiffs’ Motion for Attorneys’ Fees and
Costs for the duration of the appeal.
On August 7, 2019, the Sixth Circuit reversed this
Court’s Order and vacated the permanent injunction.
Once the mandate issued, Secretary LaRose filed his

App. 22
Bill of Costs (ECF No. 64) and Plaintiffs filed a
Renewed Motion for Attorney Fees (ECF No. 68).
On December 4, 2019, the Court in relevant part
concluded the following:
For the reasons stated above, the Court
DENIES Plaintiffs’ Motion for Attorneys’ Fees
(ECF No. 45), DENIES Plaintiffs’ Renewed
Motion for Attorneys’ Fees (ECF No. 68), and
DENIES Defendant’s Bill of Costs (ECF No. 55).
(Op. and Order at 8, ECF No. 71.)
While the Court explicitly resolved both Plaintiffs’
Renewed Motion for Attorney Fees and Motion for
Attorney Fees, Plaintiffs contend that the Court failed
to address the substance of the Renewed Motion for
Attorney Fees as it related to Defendant Portage
County, stating:
On December 4, 2019, the Court denied
Plaintiffs’ Renewed Motion for Attorney Fees,
Doc. No. 68, against Defendant-LaRose. See
Order, Doc. No. 71 (denying Motion for
Attorney’s Fees). Plaintiffs had argued in that
Motion that their winning preliminary relief
against Defendant-LaRose supported an award
of attorney’s fees notwithstanding DefendantLaRose’s successful appeal. The Court disagreed.
See Order, Doc. No. 71.
For the reasons stated in the accompanying
Memorandum of Law, Plaintiffs respectfully
move under Federal Rule of Civil Procedure
59(e) to amend that judgment to include

App. 23
resolution of Plaintiffs’ still-pending Motion for
Attorney’s Fees, Doc. No. 45, against DefendantPortage County Board of Elections, which is
based on Plaintiffs’ separate success in winning
a final judgment against Defendant-Portage
County Board of Elections. Because Defendant
Portage County Board of Elections did not
appeal that final judgment, it remains bound
and is responsible for Plaintiffs’ attorney’s fees.
(Pls’ Rule 59 Motion at 1, ECF No. 72.)
Plaintiffs have additionally requested a status
conference in the event the Court needs further
information. The Court finds that Plaintiffs’ counsel
has clearly presented his position in his briefing, and
the Court is not lacking any information necessary for
it to resolve the motion currently at bar. Therefore, a
status conference is unnecessary.
II.
Plaintiffs move under Rule 59(e) of the Federal
Rules of Civil Procedure, stating:
Rule 59(e) states that “[a] motion to alter or
amend a judgment must be filed no later than 28
days after the entry of the judgment.” Rule 59(e)
is the proper vehicle for clarifying judgments,
see, e.g., Belair v. Lombardi, 151 F.R.D. 698
(M.D. Fla. 1993), and for addressing claims that
have not yet been resolved. See C. WRIGHT, ET
AL., 11 FED. PRAC. & PRO. 2810.1 (3d ed. 2019).
“Since specific grounds for a motion to amend or
alter are not listed in the rule, the district court

App. 24
enjoys considerable discretion in granting or
denying the motion.” Id.
(Pls’ Rule 59 Motion at 5-6, ECF No. 72.)
Plaintiffs contend that they are entitled to attorney
fees under 42 U.S.C. § 1988, which in relevant part
provides:
In any action or proceeding to enforce a
provision of . . . [Section] 1983 . . ., the court, in
its discretion, may allow the prevailing party,
other than the United States, a reasonable
attorney’s fee . . . .
42 U.S.C. § 1988(b).
III.
Plaintiffs request that the Court amend or alter the
judgment because Portage County did not join in the
appeal that ultimately reversed the merits of the
decision in which Plaintiffs prevailed. However, even if
Plaintiffs are still considered prevailing parties as to
Portage County, awarding attorney fees in this
situation would raise form over substance. The Sixth
Circuit reversed the merits of the decision upon which
Plaintiffs now stand. And, as Plaintiffs recognize, Rule
59 grants considerable discretion to alter or amend
judgements and Section 1988 too relegates to the trial
court’s discretion whether an award of attorney fees in
any particular case is appropriate. This Court is not
inclined to exercise its discretion in favor of awarding
fees and/or altering its judgment under the precise
factual scenario presented in this case. This decision
does not implicate the effects of joining or not joining

App. 25
an appeal, but instead only relates to this Court’s
discretionary power to award attorney fees under
Section 1988 and to amend a judgement under Rule 59.
IV.
For the reasons stated above, the Court DENIES
Plaintiffs’ Rule 59(e) Motion to Alter or Amend
Judgment Denying Attorney’s Fees (ECF No. 72),
DENIES Plaintiffs’ Request for a Status Conference
(ECF No. 76), and DIRECTS the Clerk to close this
case.
IT IS SO ORDERED.
9-21-2020
DATE
/s/ Edmund A. Sargus, Jr.
EDMUND A. SARGUS, JR.
UNITED STATES DISTRICT JUDGE

